     Department of Homeland Security

     ��������������������������


     Santa Cruz Port District Generally Followed 

          Regulations for Spending FEMA 

             Public Assistance Funds





OIG-14-56-D                                 March 2014

                                      OFFICE OF INSPECTOR CENERAL
                                           Department ot' Homeland Security
                                            Washington. ()(' 205~8 / '''V.'w.o:g.dhs.go\'
                                      March 24, 2014

MEMORANDUM FOR:                        Karen Armes
                                       Acting Regional Administrator, Region IX
                                       Federaf'Emerge,ncy Manag~ment Agency

FROM:
                                                \_ ;,//1!!)
                                       John V. Ke   ____L "---
                                       Assist91) SP._~ctor General
                                       OfficKf Emergency Management Oversight

SUBJECT:                               Santa Cruz Port District Generally Followed Regulations for
                                       Spending FEMA Public Assistance Funds
                                       FEMA Disaster Number 1628-DR-CA
                                       Audit Report Number OIG-14-56-D

We audited Federal Emergency Management Agency (FEMA) Public Assistance grant funds
awarded to the Santa Cruz Port District, California (District), Public Assistance Identification
Number 087-UlTDI-00. Our audit objective was to determine whether the District accounted
for and expended FEMA grant funds according to Federal regulations and FEMA guidelines.

The California Governor's Office ofEmergency Services (State), a FEMA grantee, awarded the
District $2,540,374 for costs resulting from severe storms, flooding, mudslides, and landslides
from December 17, 2005, through January 3, 2006. The award provided 75 percent FEMA
funding for one large project and one small project. 1 Our audit covered the period from
December 17, 2005, to July 2, 2013. We ~udited the one large project (Project 2186) totaling
$2,532,324. During our audit fieldwork, FEMA closed the District's grant in July 2013.

We conducted this performance audit between May 2013 and December 2013, pursuant to
the Inspector General Act of 1978, as amended, and according to generally accepted
government ~uditing standards. Those standards require that we plan and perform the audit
to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based upon our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based upon our audit objective. We
conducted this audit by applying the statutes, regulations, and FEMA policies and guidelines in
effect at the time ofthe disaster.

We selected this grant for audit because of the significant delay on the part of the State to
close the one large project (Project 2186) and other issues that carne to our attention
pertaining to project obligations and disaster costs.

1
    Federal regulations in effect at the time of the disaster set the large project threshold at $57,500.
                                 OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   We interviewed FEMA, State, and District officials; reviewed judgmentally selected project
   costs (generally based on dollar value); and performed other procedures considered necessary
   to accomplish our objective. We also notified the Recovery Accountability and Transparency
   Board of all contracts the District awarded under the grant to determine whether the
   contractors were debarred or whether there were any indications of other issues related to
   those contractors that would indicate fraud, waste, or abuse. We did not assess the adequacy
   of the District’s internal controls applicable to grant activities because it was not necessary to
   accomplish our audit objective. However, we did gain an understanding of the District’s
   method of accounting for disaster-related costs and its procurement policies and procedures.


                                            BACKGROUND

   The Santa Cruz Port District’s mission, in part, is to ensure that Santa Cruz Harbor is a viable
   operational and financial entity, providing a full array of boating and marine-related
   opportunities for the public. The District comprises a 37-square mile area that includes the City
   of Santa Cruz and receives its statutory authority from the Harbors and Navigation Code of the
   State of California.

   The disaster flooding and mudslides caused increased sediment accumulation in boat channels
   and slip areas of the Santa Cruz Harbor. The one large project in our audit scope provided the
   District funding to dredge 37,148 cubic yards of sediment from the Harbor. The dredging
   operation consisted of three phases. The District implemented the first phase in 2007 and the
   other two in 2008. As of the date of our audit, the District had completed all FEMA-funded
   work.

                                          RESULTS OF AUDIT

   District officials generally accounted for and expended FEMA Public Assistance grant funds
   according to Federal regulations and FEMA guidelines. However, the District’s claim for Project
   2186 included $99,215 in disaster costs that were duplicate, ineligible, or unsupported. This
   amount represents less than 4 percent of the $2,532,324 we audited. Specifically, the District’s
   claim included the following questionable costs:

       •   $56,878 in duplicate costs,
       •   $36,830 for unsupported labor costs, and
       •   $5,507 for miscellaneous ineligible costs.

   Therefore, FEMA should disallow $99,215 of duplicate, ineligible, or unsupported costs. In
   addition, the State needs to improve its procedures for closing disaster grants more timely.



www.oig.dhs.gov                                 2                                      OIG-14-56-D
                                        OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security
   Finding A: Duplicate Costs

   District officials erroneously claimed $56,878 in duplicate costs for Project 2186. In effect, by
   claiming costs more than once, the District requested duplicate benefits. Section 312(a) of the
   Stafford Act, DuplicationfoffBenefits, states that no entity will receive assistance for any loss for
   which they have received financial assistance from any other program, from insurance, or from
   any other source.2 Therefore, we question these costs as ineligible. Table 1 summarizes the
   duplicate costs:

                                       Table 1: Summary of Duplicate Costs
                                        Type of Cost               Amount
                                Trucking Costs                       $ 3,255
                                Equipment Rental                       6,258
                                Fringe Costs-Vacation                 11,827
                                Worker’s Compensation                 12,900
                                Fringe Costs-Union                    22,638
                                           Total                     $56,878

   Finding B: Unsupported Labor Costs

   The District did not provide adequate documentation to support $36,830 in claimed labor
   costs for one salaried employee. Cost principles at 2 Code of Federal Regulations (CFR) 225,
   Appendix A, section C.1.j, state that a cost must be adequately documented to be allowable
   under Federal awards. Also, 44 CFR 13.20(b)(6) requires subgrantees to support their
   accounting records with source documentation such as canceled checks, paid bills, payrolls,
   time and attendance records, and contract and subgrant award documents.

   The District’s support for the labor costs consisted of a summary worksheet that did not
   include documentation to show the disaster tasks performed and the corresponding hours the
   employee worked. Therefore, we question $36,830 as unsupported.

   Finding C: Miscellaneous Ineligible Costs

   The District claimed $5,507 in costs for Project 2186 that are not eligible for the following
   reasons:

         •	 $2,670 in professional services costs the District incurred before the disaster event.
            According to 44 CFR 206.223(a)(1), an item of work must be required as a result of a
            major declared disaster event to be eligible for FEMA financial assistance.



   2
       RobertfT.fStaffordfDisasterfRelieffandfEmergencyfAssistancefAct, as amended, 42 U.S.C. 5121, etfseq.

www.oig.dhs.gov                                          3                                        	   OIG-14-56-D
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security

       •	 $2,837 in unauthorized costs, including $1,935 for handheld radios and $902 for a
          turbo meter. The FEMA approved scope of work did not include the purchase of
          handheld radios or a turbo meter to complete the disaster repairs. In addition, the
          District did not have documentation to show that it used the turbo meter for disaster
          work. Therefore, these expenses are ineligible because FEMA did not authorize them.
          Cost principles at 2 CFR 225, Appendix A, Section C.1.d, require that for costs to be
          allowable under Federal awards, costs must conform to any limitations or exclusions
          set forth in these principles, Federal laws, terms and conditions of the Federal award,
          or other governing regulations as to types or amounts of cost items.

   Therefore, we question the $5,507 as ineligible.

   Finding D: Grant Management

   The State needs to improve its grant management procedures to ensure the timely completion
   of large project closeouts. Federal regulations at 44 CFR 13.40(a) requires the State to manage
   the day-to-day operations of subgrant activity and monitor subgrant activity to ensure
   compliance with applicable Federal requirements.

   The District completed Project 2186, a large project, in March 2008. The State, however, did
   not provide FEMA with the closeout information until June 2013. According to 44 CFR
   206.205(b)(1), the State is required to make an accounting to FEMA of eligible costs for each
   approved large project, as soon as practicable after a subgrantee has completed the approved
   work and requested payment. In addition, FEMA’s Standard Operating Procedure 9570.14,
   Section 9.2.1, requires the State to reconcile costs within 90 days from the date a subgrantee
   completes a project.

   In conclusion, the State is accountable for grant management and responsible for completing
   project closeouts in a timely manner. Therefore, the State should take steps to improve its grant
   management procedures and provide FEMA better assurance on the timely closeout of large
   projects.


                                            RECOMMENDATIONS

   We recommend that the Regional Administrator, FEMA Region IX:

   Recommendation #1: Disallow $56,878 ($42,658 Federal share) as ineligible, duplicate costs
   (finding A).

   Recommendation #2: Disallow $36,830 ($27,622 Federal share) as unsupported costs unless
   the District can provide adequate documentation to support the costs (finding B).


www.oig.dhs.gov                                4                                  	   OIG-14-56-D
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security
   Recommendation #3: Disallow $5,507 ($4,130 Federal share) as ineligible costs (finding C).

   Recommendation #4: Reemphasize to the State its grantee responsibilities and the need to
   provide FEMA better assurance on the timely closeout of large projects (finding D).


                     DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

   We discussed these results with District officials during our audit. We also provided a written
   summary of our findings and recommendations in advance to the State and the District on
   August 29, 2013, and to FEMA on December 11, 2013. We discussed the findings and
   recommendations with State and District officials on September 4, 2013, and with FEMA
   officials on December 18, 2013. District officials did not agree with the findings and noted that
   they would provide further clarification to the State after we issue the final report. FEMA and
   State officials elected to withhold formal comments until after we issue our final report.

   Within 90 days of the date of this memorandum, please provide our office with a written
   response that includes your (1) agreement or disagreement, (2) corrective action plan, and (3)
   target completion date for each recommendation. Also, please include the contact information
   of responsible parties and any other supporting documentation necessary to inform us about
   the current status of the recommendations. Until we receive and evaluate your response, we
   will consider the recommendations open and unresolved.

   Consistent with our responsibility under the InspectorfGeneralfAct, we will provide copies of
   our report to appropriate congressional committees with oversight and appropriation
   responsibility over the Department of Homeland Security. We will post the report on our
   website for public dissemination.

   Major contributors to this report are Humberto Melara, Director; Louis Ochoa, Audit Manager;
   Renee Gradin; Auditor; and Connie Tan, Auditor.

   Please call me with any questions at (202) 254-4100 or your staff may contact Humberto
   Melara, Director, Western Regional Office, at (510) 637-1463.




www.oig.dhs.gov                                5                                      OIG-14-56-D
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security
                                                                                       Appendix
                                         Report Distribution

   Department of Homeland Security
   Secretary
   Chief of Staff
   Chief Financial Officer
   Under Secretary for Management
   Audit Liaison
   Chief Privacy Officer

   Federal Emergency Management Agency
   Administrator
   Chief of Staff
   Chief Financial Officer
   Chief Counsel
   Director, Risk Management and Compliance
   Audit Liaison (Job Code G-13-033)
   Audit Liaison, Region IX

   Grantee (California Governor’s Office of Emergency Services)
   Director
   Audit Liaison

   State (California)
   California State Auditor, Bureau of State Audits

   Subgrantee (Santa Cruz Port District, California)
   Administrator Service Manager
   Port District Director

   Congressional Oversight and Appropriations Committees, as appropriate, including:
   Senate Committee on Appropriations, Subcommittee on Homeland Security
   Senate Committee on Homeland Security and Governmental Affairs
   House Committee on Appropriations, Subcommittee on Homeland Security
   House Committee on Homeland Security
   House Committee on Oversight and Government Reform
   House Committee on Transportation and Infrastructure

   Office of Management and Budget
   Chief, Homeland Security Branch
   DHS OIG Budget Examiner


www.oig.dhs.gov                                6                               OIG-14-56-D
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.”

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
